rj>

FILED
AT ^LOCK* M
FORMAL ORDER

FEB 01 2021
STATE. OF ARKANSAS,

.)
)

SUPREME COURT

DIANI'I BOWMAN

SCT.

u'.r; county circuit clerk
MARIANNA, ARKANSAS

)

BE IT REMEMBERED, THAT A SESSION OF THE SUPREME COURT
BEGUN AND HELD IN THE CITY OF LITTLE ROCK, ON JANUARY 28, 2021,
AMONGST OTHERS WERE THE FOLLOWING PROCEEDINGS, TO-WIT:

'

SUPREME COURT CASE NO. CV-20-267
APPELLANT

LANCE MITCHELL OWENS
. V. APPEAL FROM LEE COUNTY CIRCUIT COURT - 39CV-20-6
DEXTER PAYNE, DIRECTOR, ARKANSAS DEPARTMENT
OF CORRECTION

APPELLEE

APPELLANT’S, PRO SE PETITION FOR REHEARING IS DENIED. WEBB, J., NOT
PARTICIPATING. ' ■ : . • ' '

r

„
>pL?•

~

IN TESTIMONY, THAT THE ABOVE IS A TRUE COPY OF
THE ORDER OF SAID SUPREME COURT, RENDERED IN
THE CASE HEREIN STATED, I, STACEYPECTOL,
CLERK OF SAID SUPREME COURT, HEREUNTO
SET MY HAND AND AFFIX THE SEAL OF SAID
:a;/aSUPREME COURT, AT MY OFFICE IN THE CITY OF
TEE ROCK, THIS 28TH DAY OF JANUARY, 2021.

ii! A V-XCLERK
•>.S.

.V*

BY:

. .V//

ORIGINAL TO CLERK
CC: LANCE MITCHELL OWENS
MICHAEL ZANGARi, ASSISTANT ATTORNEY GENERAL.

■ DEPUTY CLERK

.

ELECTRONICALLY FILED
Arkansas Supreme Court
Stacey Pectol, Clerk of the Courts

2020-Dec-30 15:01:20
CV-20-267
4 Pages

IN THE ARKANSAS SUPREME COURT

LANCE MITCHELL OWENS

APPELLANT

CASE NO. CV-20-267

VS.

DEXTER PAYNE, DIRECTOR
Arkansas Division of Correction

APPELLEE

RESPONSE TO PRO SE PETITION FOR REHEARING
Comes now the appellee, by and through counsel, Leslie Rutledge, Attorney
General, and Michael Zangari, Assistant Attorney General, and for his response,
states:
1. On December 10, 2020, this Court unanimously affirmed the denial of
Appellant’s pro se habeas petition challenging his 2002 guilty pleas to kidnapping
and first-degree murder. Owens v. Payne, 2020 Ark. 413, at 1-4.
2. On appeal, Appellant argued, in part, that the sentence imposed for firstdegree murder was illegal pursuant to Ark. Code Ann. § 16-90-804 (Supp. 1999)
because his judgment-and-commitment order did not include written reasons for a
departure from the sentencing guidelines and that it exceeded the punishment
allowed by law. See Owens, 2020 Ark. 413, at 1, 3. In response, the appellee

countered that Appellant’s judgment reflected a valid sentence for first-degree
murder. See Appellee Arg. 2-4.
3. In its opinion, this Court rejected Appellant’s illegal-sentence claims and
unanimously denied him habeas relief. Owens, 2020 Ark. 413, at 1-4.
Specifically, this Court noted that transcript from his murder plea “demonstrate[d]”
Appellant’s understanding that the State was recommending a life sentence and
determined that Ark. Code Ann. § 16-90-804’s requirements were inapplicable,
given that “he agreed to [the sentence] before entering his plea[.]” Id., 2020 Ark.
413, at 2-4. Lastly, this Court held that trial court had imposed a statutorily
authorized sentence for the crime of first-degree murder. Id., 2020 Ark. 413, at 4.
4. Appellant now seeks rehearing pursuant to Ark. Sup. Ct. R. 2-3(g) (2019),
arguing that this Court committed an error of law by holding that Ark. Code Ann. §
•16-90-804 did not apply to his plea and enforcing the “illegal agreement.” Pet. 13. Because this Court addressed and properly rejected Appellant’s habeas claims
on appeal, his request for rehearing should be denied.
5. Pursuant Ark. Sup. Ct. R. 2-3(g), an appellant requesting “rehearing
should . . . call attention to specific errors of law . . . which the opinion is thought
to contain.” However, such a petition “is not intended to afford an opportunity for
a mere repetition of [an] argument already considered[,]” id. (emphasis added), and
requires an appellant to demonstrate an error of law contained within the opinion.
2

See generally Johnson v. State, 2020 Ark. 86, at 1-2 (denying rehearing of habeas
petitioner’s novel claims).
6. Here, Appellant merely repeats his arguments on appeal that his lifesentence was facially illegal and that Ark. Code Ann. § 16-90-804’s requirements
applied to his plea. However, this Court found that Appellant’s life-sentence fell
within the “permitted statutory range for first-degree murder” and that Ark. Code
Ann. § 16-90-804’s requirements “d[id] not apply.” Owens, 2020 Ark. 413, at 4
(emphasis added). Moreover, Appellant fails to cite any persuasive authority to
contradict the well-established precedent relied upon in the decision, id., 2020 Ark.
413, at 4, and this Court need not reconsider his claim. See, e.g, Johnson, 2020
Ark. 86, at 1-2 (denying rehearing for habeas “arguments that were considered and
rejected on appeal.”).
7. Accordingly, Appellant’s petition fails to show any legal errors to warrant
rehearing pursuant to Ark. Sup. Ct. R. 2-3(g), and, thus, should be denied.
WHEREFORE, the appellee respectfully prays that this Court deny
Appellant’s pro se petition for rehearing.

Respectfully submitted,
LESLIE RUTLEDGE
Attorney General
BY: /s/Michael Zangari
MICHAEL ZANGARI
Arkansas Bar No. 2015056
Assistant Attorney General
323 Center Street, Suite 200
Little Rock, Arkansas 72201
(501)682-3657 [phone]
(501)682-2083 [fax]
michael.zangari@arkansasag.gov
ATTORNEYS FOR APPELLEE

CERTIFICATE OF SERVICE
I, Michael Zangari, certify that on December 30, 2020, the foregoing
document has been mailed, by United States Postal Service, postage prepaid, to:
Mr. Lance M. Owens
ADC#610855
East AR Regional Unit
PO Box 970
Marianna, AR 72360
/s/ Michael Zangari
MICHAEL ZANGARI

4

ARKAMSAS SUPREME COURT

App&lknf

Lance MtVeWll 0u>ms
Mo, £\J-20-un

v.

Appellee

0. Payne., Duettog ADC.

PETITION FOR REHEARING

Comes no to Appellant, tanae. MttcWU OtOmS, and for kis tUitioa for Rehearing,
states ‘

On Deo.em.ber 10, 2020, this Court affirmed 1W denial of Appellant's petition -for
oort V of habeas corpus, by the Ue Counfy Circuit Court. That atfirmanoe is m error
because this Court *

1. Relies on a statutory sentencing range that is expressly prohibited by
Arkansas statutory law ;
2. Relies on that illegal sentencing range wW bolding -Rial Appellant Tailed
to demonstrate tbit bis sentence is illegal
3. Relics on Appellant's unlawful (guilty plea, agreement: as authorization
for what is an expressly illegal sentence; and;
H. Failed to address Appellant's issues because of its reliance on. an
illegal sentencing range.

FACTS

t

AX, A. § ik 'SO-803 is ike cmWllmo, §enkncin<^ sbkde. m fie case ai bar.
IV s mandafory language, commands mandatary compliance i and ike Sefiknces if recommends
Supersede ifiose sk oui in olkfcr staiules.

('Wkm a. person *. > enVers a pW of <juiliy ■ •• -

smie/iem.^ SHALL foiloio Hie procedures provided in VW chapier. A,(LA.§ Ib'iG-"803(a)(1)(A), (pmpbasu. added,)

Stall

means ' Mandatary Compliance71. Hobbs v. Gordon

lo clarify - AX, A. § KWO-803 expressly probibifs

434 S.u/, 3j 3(^4® 370.)

seniencmc^ fkai uiilrees ike cancje seb euV m -Hie firsf ■- decree murder stafufc, fkcrefore,
-Hu's Court's reliance upon -Hie ranine ssf ouf to Ike firsV-degree murder stafuk is erroneous.

A courf of lau) cannoi enforce an unlawful a^reemerth Tke plea acy~eemenf
eniered ink) by AppellaiH is unlawful because if imposes a senWee Wi is expressly proWblied
ky Arkansas stafuiory l ato

By holding fWifke applicable senfemcim^ sfafick doesn’i

apply because AppHlani eniered a fplea of c^uiHy11, Vkis (Wf is enforcing an illegal

acjreemeni.

(§oe! Opinion

P3 .4)

Tkis Ooari erred by relying on asenfencinOj fana,e made Void by AH.A, § Ik 80'803..

because of Hits error, bke (taurf did noi address ike issues raised by AppelUni.

CONCLUSION

Tkis Courivs decisions; m ibis ease are based on error,

in making ii's

decisions, ibis (kuri relied on seMenciiQo^ law nd applicable io ibe case.

As a

resnlf of fkis error ike four! could not make informed decisions m ibis case and could
n<si deiermtne W Uu)iuW$s of ike Appellants senWee,

1

Under Hre eonlrollm^ Sentencing ^tstutc., Appellants sentence is illegal. TW
inclusion of-Hie illeopl sentence tr\ Appellants plea agreement makes Hie plea, agreement
illegal, and 4V\W Oourt erred by Holding tie ilU<gil plea, agreement as Valid justification
Hr uiWf is. m -(ted expressly prohibited by law.

TWese issues raised by Appellant were nod: addressed by 4bis QiouA and Have never
been addressed by a court of law.

bor -Hie reasons set old Herein ( Appellants PetrkoA far Hekearung should be
granted and /cr a. bearing set on tke issues raised.

especially SuW-utW)
Lance Mifebel! OtJens

(sioessP.O. Box 400
Grady A- niLHH

3

A

B

\

filed
AT
MANDATE

QIC LOCK K\ M

w.bo'

FEB 0 1 2021

AFFIRMED
PROCEEDINGS OF DECEMBER 10, 2020

I )IANl' BOWMAN
!,!:!■: COUNTY ClKCUI'l' CUPRIC
MARIANNA, ARKANSAS

\

SUPREME COURT CASE NO. CV-20-267
APPELLANT

LANCE MITCHELL OWENS
V. APPEAL FROM LEE COUNTY CIRCUIT COURT
(39CV-20-6)
DEXTER PAYNE, DIRECTOR, ARKANSAS DEPARTMENT
OF CORRECTION

APPELLEE

THIS POST CONVICTION CIVIL APPEAL WAS SUBMITTED TO THE
ARKANSAS SUPREME COURT ON THE RECORD OF THE LEE COUNTY CIRCUIT
COURT AND BRIEFS OF THE RESPECTIVE PARTIES. AFTER DUE CONSIDERATION,
IT IS THE DECISION OF THE COURT THAT THE JUDGMENT OF THE CIRCUIT COURT
IS AFFIRMED.
HART, J., CONCURS.

IN TESTIMONY, THAT THE ABOVE IS A TRUE AND CORRECT COPY OF THE
JUDGMENT OF THE ARKANSAS SUPREME COURT, I, STACEY PECTOL,
CLERK, SET MY HAND AND AFFIX MY OFFICIAL SEAL, ON THIS 28TH DAY
OF JANUARY, 2021.
' 1 ! ■' If;,

.

-> .

, cn ~
.CF

-/.EnoO

STACEY RECTOL, CLERK

SUPREME COURT OF ARKANSAS
No. CV-20-267
Opinion Delivered: December 10, 2020
LANCE MITCHELL OWENS
APPELLANT
V.
DEXTER PAYNE, DIRECTOR,
ARKANSAS DEPARTMENT OF
CORRECTION
APPELLEE

PRO SE APPEAL FROM THE LEE
COUNTY CIRCUIT COURT
[NO. 39CV-20-6]
HONORABLE RICHARD L.
PROCTOR, JUDGE
AFFIRMED.

COURTNEY RAE HUDSON, Associate Justice
Appellant Lance Mitchell Owens appeals the circuit court’s denial of his pro se
petition for writ of habeas corpus filed pursuant to Arkansas Code Annotated sections 1 6
112-101 to -123 (Repl. 2016). Owens filed his petition in Lee County where he is currently
incarcerated. Owens alleged below and reasserts on appeal that his sentence is illegal because
it exceeded the presumptive sentence for the crime of first-degree murder to which he
pleaded guilty. Owens argues that the failure to attach to the judgment and commitment
order Owens’s written reasons for the departure from the presumptive sentence rendered
his sentence illegal pursuant to Arkansas Code Annotated section 16-90-804 (Supp. 1999).
We affirm.

'In his petition tiled in the circuit court, Owens raised a double-jeopardy claim but
states in his brief-in-chief that “[ajppellant believes he was mistaken about the double­
jeopardy claim and will not pursue the claim further.” Claims that are not raised on appeal
are considered abandoned. Cave v. State, 2020 Ark. 156, 598 S.W.3d 506.

r

•*

l

■*

'. A

On September-6, 2002, Owens pleaded guilty in Madison County to first-degree
murder in case number 44.CR-01-54 and to kidnapping that, was committed in Washington
Owens waived venue and pleaded guilty to

„ County in case number 72CR-01-1050.

kidnapping the victim in Washington County and murdering her in Madison County. Owens
was sentenced to' life imprisonment for first-degree murder and to thirty years’ imprisonment
for kidnapping, which was imposed to run concurrently.

As part of the negotiated plea

agreement, the offense of capital murder was reduced to.first-degree murder. The transcript
of the plea hearing that is included in the record demonstrates that Oy/ens and his codefendant
admitted that they kidnapped the victim in Washington County where she was bound and
gagged and held for several days before being driven to Madison County where she was
strangled and thrown into Beaver Lake. The transcript of the hearing also shows that Owens
and his codefendant understood that they would be sentenced tO(life imprisonment as part of
the negotiated plea deal, which reduced the charge of capital murder to that of first-degree
murder.

Owens was asked by his trial counsel if he understood that his sentence to life

imprisonment meant life, and Owens replied in the affirmative.
A writ of habeas corpus is proper when a judgment and commitment order is invalid
on its face or when a trial court lacked jurisdiction over the cause. Foreman v. State, 2019
Ark. 108, 571 S.W.3d 484. Jurisdiction is the power of the court to hear and determine
xv

the subject matter in controversy. Baker v. Norris, 369 Ark. 405, 255 S.W.3d 466 (2007).
When the trial court has personal jurisdiction over the appellant and also has jurisdiction
over the subject matter, the court has authority to render the judgment. Johnson v. State,
298 Ark. 479, 769 S.W.2d 3 (1989).

2

Madison County Circuit Court is illegal because the order does not abide by the
requirements set forth in Arkansas Code Annotated section 16-90-804 (Supp. 1999).2
Owens received a sentence that he agreed to before entering his plea of guilty, and
under those circumstances, section 16-90-804 does not apply. See Waller v. Kelley, 2016
Ark. 252, 493 S.W.3d 757; see also Redus v. State, 2013 Ark. 9 (per curiam) (When a habeas
petitioner has accepted a negotiated plea, we do not look beyond the permitted statutory
range of punishment in determining, whether the sentence was valid.). The transcript of
the plea hearing demonstrates that in exchange for the guilty plea, the prosecutor
recommended a thirty-year sentence for kidnapping and life imprisonment for first-degree
murder and that Owens understood the sentencing recommendation when he pleaded
guilty. The permitted statutory range for first-degree murder, which is a Class Y felony, is
not less than ten years and not more than forty years, Or life. See Ark. Code Ann. §§ 5-4
401, 5-10-102 (Repl. 1997). In view of the above, Owens has failed to state a claim for
issuance of a writ of habeas corpus because he has failed to demonstrate that his sentence is
illegal on its face.
Affirmed.
HART, J., concurs.

2Arkansas Code Annotated section 16-90-804 was originally enacted by Acts 532
and 550 of 1993 and was amended by Act 1170 of 1995. These Acts codified at section
16-90-804 appear in the 1997 and 1999 supplements to Title 16 of the Arkansas Code and
include the 1995 amendments to the original Acts of 1993.
4

